V
H

CERTIFICATE OF SERVICE/DECLARATION OF INMATE FILING
I hereby certify that I am an inmate in the Big Muddy Correctional
Center, that a true copy of the foregoing Petition for Writ of Certiorari was
served upon the Clerk of the United States Supreme Court and all counsel of
record, as follows:
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Nicholas Moeller
Assistant Attorney General
100 West Randolph Street, 12th Floor
Chicago, IL 60601-3218
via BMRCC mail box, the institution’s internal mail system, with postage
pre-paid by me or by the institution on my behalf, on
tOcro&f/z
20 c30. and request that it be
filed/e-filed upon receipt. I declare under penalty of perjuiy that the
foregoing is true and correct. drO£>
/

/

u

RAY A. GOUGH, Petitioner
Ray Gough R00646
BMRCC l-B-51
251 North Illinois Hwy 37
Ina,IL 62846

11

